<html>
<title> - QUALITY AND ENVIRONMENTAL IMPACTS OF BOTTLED WATER</title>
<body><pre>[Senate Hearing 110-1264]
[From the U.S. Government Publishing Office]



                                                      S. Hrg. 110-1264
 
                       QUALITY AND ENVIRONMENTAL
                        IMPACTS OF BOTTLED WATER

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON TRANSPORTATION SAFETY,
               INFRUSTRUCTURE SECURITY, AND WATER QUALITY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov

                               __________
                               
                               
                             U.S. GOVERNMENT PUBLISHING OFFICE
88-908                           WASHINGTON : 2015                             

____________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  
            
              
              
              
              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                              ----------                              

  Subcommittee on Transportation Safety, Infrastructure Security, and 
                             Water Quality

               FRANK R. LAUTENBERG, New Jersey, Chairman

BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     GEORGE V. VOINOVICH, Ohio
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
officio)                             officio)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 10, 2008
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1
Inhofe, James M., U.S. Senator from the State of Oklahoma........    16

                               WITNESSES

Lloyd, Emily, Commissioner, New York City Department of 
  Environmental Protection.......................................     3
    Prepared statement...........................................     4
Wu, Mae, J.D., MPhil, Staff Attorney, Natural Resources Defense 
  Council........................................................    18
    Prepared statement...........................................    21
    Responses to additional questions from Senator Boxer.........    34
Hauter, Wenonah, Executive Director, Food and Water Watch........    36
    Prepared statement...........................................    38
    Responses to additional questions from Senator Boxer.........    43
Edberg, Stephen C., PhD., A.B.M.M., Professor, Laboratory 
  Medicine, Internal Medicine, Chemical Engineering, Yale 
  University School of Medicine, and Director, Clinical 
  Microbiology Laboratory, Yale-New Haven Hospital...............    47
    Prepared statement...........................................    49
Doss, Joseph K., President and CEO, International Bottled Water 
  Association....................................................    77
    Prepared statement...........................................    80
    Responses to additional questions from Senator Boxer.........   132


                       QUALITY AND ENVIRONMENTAL 
                        IMPACTS OF BOTTLED WATER

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2008

                               U.S. Senate,
         Committee on Environment and Public Works,
     Subcommittee on Transportation Safety, Infrastructure 
                               Security, and Water Quality,
                                                     Washington, DC
    The subcommittee met, pursuant to notice, at 3 p.m. in room 
406, Dirksen Senate Building, Hon. Frank Lautenberg (chairman 
of the subcommittee) presiding.
    Present: Senators Lautenberg, Inhofe

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Good afternoon. The Subcommittee will 
come to order. We expect other Senators to join us, but I 
caution the witnesses, don't think that a quiet room up here is 
anything other than a reflection of other things to do, and not 
lack of interest in this hearing, because there is a lot of 
interest, as we all know, in this hearing.
    I would invite our witnesses to take the stand, please. We 
thank all of you for being here with us. There is a lot of 
mythology attached to drinking water, and what its value is. We 
know one thing, we know what its prices are. So as I call the 
hearing to order, I welcome everyone to today's hearing as we 
look into the quality of the bottled water that Americans are 
drinking and the impact that bottled water has on our 
environment.
    Bottled water has become so popular, so much a part of our 
culture, that more than half of all Americans drink it. About a 
third drink it with regularity. People keep bottled water 
everywhere. It is in their cars, their gym bags, in their 
homes. By the way, this Senator is also a participant in the 
consumption of bottled water. I look around my children's 
houses, they all have bottled water, and I hope they are 
listening today.
    Americans spend more than $8 billion a year on bottled 
water, and that amount is only expected, based on history, to 
grow. With people spending that much money, they have a right 
to expect that their water is safe and clean. That is what they 
expect what they turn on the faucet at home, as well. That is 
what they should expect when they turn the cap on a bottle of 
water.
    I want to be clear. Bottled water serves some important 
purposes. But in this case, we can't say what you don't know 
won't hurt you. What you don't know deserves close review. The 
need for clean bottled water is magnified during an emergency, 
such as Hurricane Gustav, which just passed through the Gulf 
Coast, when people are evacuated from their homes or in their 
homes but without basic utilities. It certainly is healthier to 
purchase water from a vending machine rather than soda.
    But what many Americans don't know is that almost 40 
percent of bottled water on the market is actually tap water, 
fresh from the tap. They don't say that, but we know that 
that's the case. Some bottlers use additional treatments to 
clean it, with others it is merely tap water in a fancy 
container. In addition, water bottles that are discarded in the 
trash have a lasting effect on our environment and the 
Country's continuing energy crisis. Americans use 2.7 million 
tons of plastic each year for water bottles. The amount of oil 
that it takes to produce those water bottles would power more 
than 1 million cars and trucks for a year. And only 14 percent 
of plastic bottles are recycled, according to one study. The 
rest languish in our landfills, and the plastic is not 
biodegradable.
    One solution is to encourage Americans to drink more tap 
water, either right from the tap or with a filter. American tap 
water is the cleanest in the world, and by drinking it, people 
can save money and save a growing environmental problem at the 
same time. Earlier this year, the U.S. Conference of Mayors 
passed a resolution to encourage the use of tap water in their 
cities. New York City, which we will hear from today, and 
cities in New Jersey across the Country played an important 
part in that resolution.
    But knowing that Americans are still going to drink bottled 
water, we can also act to give American consumers the facts 
about what they are drinking. That is why I am going to soon be 
introduced the Bottled Water Right to Know Act, which will 
provide consumers information about where their bottled water 
comes from and the quality of the water that they are drinking. 
We should never be in a situation where we don't have access to 
clean, safe water. And bottled water plays a role in that 
safety net.
    But Americans deserve to know what it is that they are 
consuming and the full effects of their decision. So I thank 
the witnesses at the table and look forward to hearing from all 
of you. I would welcome each one. Emily Lloyd, Commissioner 
with the New York City Department of Environmental Protection. 
New York City has been working on a new program to reduce 
bottled water use. I look forward to learning about their 
efforts.
    Mae Wu, an attorney with the Health and Environment 
Program, at the NRDC, the Natural Resources Defense Council. 
They have focused on bottled water issues for more than a 
decade.
    Wenonah Hauter, the Executive Director of Food and Water 
Watch, a think tank that has focused on bottled water.
    Dr. Stephen Edberg, a professor from Yale University School 
of Medicine, a well-respected microbiologist with expertise on 
health and quality of water.
    Mr. Joseph Doss, the President and CEO of the International 
Bottled Water Association, which is the industry association 
that represents bottled water producers.
    I want to thank all of you for coming today and for lending 
your expertise to this hearing. Your full statement will be 
included in the record, so I ask you to present a 5-minute 
summary of your testimony.
    Ms. Lloyd, if you will, please begin.

     STATEMENT OF EMILY LLOYD, COMMISSIONER, NEW YORK CITY 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Ms. Lloyd. Thank you. Good afternoon, Chairman Lautenberg. 
I am Emily Lloyd, Commissioner of the New York City Department 
of Environmental Protection. I greatly appreciate the 
opportunity to testify on drinking water.
    As you may know, one of New York City DEP's most important 
responsibilities is to manage the surface water system that 
provides potable water to approximately 9 million people, or 
half of the population of New York State, including of course 
New York City. Thanks to the foresight of my predecessors, the 
surface water system we operate today continues to provide 
extremely high quality water at very moderate costs, which 
unfortunately are increasing rapidly, due to unfunded mandates 
and rising construction costs.
    There are two simple reasons for the historically low cost 
of our drinking water. First, until the Surface Water Treatment 
Rule was promulgated in 1989, New York City's water required no 
treatment beyond chlorination and at times of high turbidity, 
the addition of alum. Second, it flows downhill from reservoirs 
in the mountains, down to New York City, throughout the city, 
with one or two exceptions, and all the way to the sixth floor 
in city buildings purely by gravity. That means no energy costs 
and no greenhouse gases from mountaintop to tap.
    Without sounding boastful, I hope, I think I can say safely 
that the quality and taste of New York City's drinking water is 
widely admired by both water quality professionals and by 
average New Yorkers and our guests. Most recently, at this 
year's New York State Fair, New York City's water emerged 
victorious in a tasting competition sponsored by the State 
Department of Health in the New York section of the American 
Water Works Association. The event raised awareness of the 
importance of clean, high quality drinking water and also of 
the massive investment it takes to maintain our system and keep 
our watershed clean.
    Our Federal regulators have also acknowledged the quality 
of our drinking water. We are especially proud that last year 
we were granted a 10-year renewal of EPA's filtration avoidance 
determination for 90 percent of our water supply, double the 
length of time of all previous exemptions. New York is one of 
only five large cities in the Nation that is not required to 
filter its drinking water.
    The 10-year filtration avoidance determination demonstrates 
how investment in watershed protection assures the continued 
delivery of safe, clean drinking water. Watershed protection is 
one of the highest priorities in Mayor Michael Bloomberg's 
PlaNYC 2030, the blueprint for making New York City an even 
more sustainable city. Nineteen initiatives in the plan address 
water quality and the maintenance and upgrade of our water 
network.
    Of course, supplying 9 million people with high quality 
drinking water comes at an ever-increasing cost. Aging 
infrastructure and evolving regulations are requiring a huge 
reinvestment in our water system. From 1972 until 1986, Federal 
programs supplied some support. But for many years now, 
municipalities have been on their own financially. We hope that 
the growing awareness of the high quality of our drinking water 
and the importance of tap water as a natural resource will 
encourage renewed Federal interest in water infrastructure.
    Returning to the subject of your bill, Senator Lautenberg, 
establishing standards for bottled water at least as protective 
as drinking water, I believe it highlights the differences 
between tap and bottled water. In June, Mayor Bloomberg signed 
on to a resolution of the U.S. Conference of Mayors that you 
referred to, supporting municipal water systems. The resolution 
draws some striking contrasts between tap water and bottled 
water. Bottled water can costs a thousand to ten thousand times 
what tap water costs the consumer. Tap water is subject to more 
stringent testing requirements and still costs a fraction of 
bottled water. Plastic water bottles are an ever-growing 
component of municipal waste, and their production and 
distribution consume tremendous amounts of energy.
    The resolution recognizes that there are going to be 
circumstances where municipalities, New York City included, 
will not have alternatives to bottled water, particularly in 
emergency situations. But we hope the resolution will erode the 
misperception that public water supplies are somehow less 
desirable than commercial bottled water. In fact, public water 
supplies are one of society's greatest assets, and tap water is 
superior to the quality of bottled water at a fraction of the 
cost, both direct and indirect. Aggressively promoting tap 
water raises citizens' awareness of the importance and quality 
of this resource.
    I know the Subcommittee is interested in efforts taken by 
New York City to promote tap water consumption. Last year, DEP, 
in conjunction with the New York City Department of Health and 
Mental Hygiene, conducted a public awareness campaign on the 
benefits of drinking tap water. The multimedia campaign 
included posters on public transit, I brought an example here, 
radio spots in Spanish and English and the distribution of more 
than 50,000 reusable water bottles. Again, I brought one of 
those for people to see.
    One of the goals of the campaign was to address the myth 
that tap water is somehow not as safe or desirable as bottled 
water or sweetened beverages. Part of our challenge is that for 
many of our foreign-born residents and visitors, it is not a 
myth. The reality is that finding a safe and reliable source of 
potable water is a problem in many areas of the world. Recent 
immigrants and their children may needlessly spend money on 
bottled water or opt for a cheaper can of sugary soda if they 
don't know that tap water is the cheaper, healthier 
alternative.
    Working again with sister agencies, we are now preparing a 
renewed campaign to expand awareness of the benefits of New 
York City tap water. Making the healthier choice, we believe, 
should be everyone's right. Making the choices, personal and 
governmental, that support the environment and public drinking 
water infrastructure we think is everyone's responsibility.
    [The prepared statement of Ms. Lloyd follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Lautenberg. Thank you, Ms. Lloyd. I don't want 
anybody to think that I am prejudiced to New York City's side 
of the issue. We will try to allow others fairness in watching 
the clock.
    Ms. Wu, we thank you for being here with us.
    Senator Inhofe.
    Senator Inhofe. I am sorry, Mr. Chairman, while I am the 
Ranking Member of the whole Committee, Senator Vitter from 
Louisiana is the Ranking Member of this Subcommittee. He has an 
amendment on the floor, so I told him I would sit in at the 
beginning.
    Senator Lautenberg. Please forgive me. I would ask Senator 
Inhofe, please, Ms. Wu, to make his opening statement.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you.
    First of all, thank you for having this hearing. I think we 
in the United States are privy to the very best quality of both 
tap water and bottled water. It is something that does deserve 
attention at this time.
    Due to Senator Vitter's absence, he wanted me to say to the 
bottled water industry how much he appreciates the help that 
you have been all during the disasters that they have had to 
incur down in Louisiana. He said you have really come in and 
done an excellent job.
    Recently certain NGO's, non-governmental organizations, 
have argued that bottled water poses health risks to humans and 
is extremely harmful to the environment, spurring some public 
concern and spurring this hearing, I might add. These issues, 
however, are not new. They have been studied for quite some 
time and needless public concern should be taken into 
consideration.
    The safety of bottled water is comprehensively regulated at 
the Federal, State and the local industry levels. In fact, both 
the Natural Resources Defense Council and the Centers for 
Disease Control note that illness from bottled water has only 
been a result of rare, isolated instances, which suggests that 
the current framework works and further regulation may not be 
necessary. The bottled water industry, in recognition of 
environmental concern and shifting consumer preferences, has 
led industry efforts to significantly enhance their 
sustainability efforts to minimize environmental impact.
    The production of bottled water, however, does share many 
of the same environmental impacts as other consumer goods. How 
many of my colleagues have walked down the supermarket aisles 
lately to find that many products are now packaged as a 
disposable good. Society has driven the market to produce more 
disposable goods, putting extreme pressures on municipal waste 
sites. It is important to note that the proliferation of 
bottled water and other consumer goods is a consequence of 
shifting consumer lifestyles.
    As a former mayor, I sympathize with the concerns of 
increased pressures on the holding capacity of our counties' 
municipal waste facilities. We as a Country need to become more 
conscious of what we buy and toss into our garbage cans.
    We will hear testimony today from our distinguished 
witnesses. We will also hear testimony on both sides of this 
issue. I hope this issue will provide clarity to the status of 
bottled water, which is already comprehensively regulated at 
the Federal, State and local level. I thank you, Mr. Chairman, 
for holding this hearing.
    [The prepared statement of Senator Inhofe follows:]

             Statement of Hon. James Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Mr. Chairman, thank you for calling this hearing today on 
the quality and environmental impacts of bottled water. I'm 
sure you would agree that Americans are privy to the best 
drinking water and bottled water available in the world. There 
is undoubtedly growing popularity of bottled water and 
consumers and the general public are justified to ask whether 
bottled water in America is safe and sustainable. I believe the 
answer to both of those questions is yes, as we will hear in 
testimony today.
    Due to Senator Vitter's absence, I would first like to 
mention how grateful we all are for the bottled water 
industry's service to our country in recent catastrophes. The 
State of Louisiana I'm sure is grateful for the continued 
assistance. America's recovery efforts would be severely 
hindered if it weren't for their generosity.
    Recently, certain Non-Governmental Organizations or NGO's 
have argued that bottled water poses health risks to humans and 
is extremely harmful to the environment, spurring some public 
concern and this hearing. These issues, however, are not new 
but have been studied for quite some time. Nevertheless, public 
concern should not be discounted.
    The safety of bottled water is comprehensively regulated at 
the Federal, State, Local and Industry levels. In fact, both 
the Natural Resource Defense Counsel and the Center for Disease 
Control note that illness from bottled water has only been the 
result of rare and isolated incidents, which suggests that the 
current framework works and further regulation is unnecessary.
    The bottled water industry in recognition of environmental 
concern and shifting consumer preferences have led industry 
efforts to significantly enhance their sustainability efforts 
to minimize environmental impact. The production of bottled 
water, however, does share many of the same environmental 
impacts as other consumer goods. How many of my colleagues have 
walked down the supermarket isles lately to find that many 
products are now packaged as a disposable good. Society has 
driven the market to produce more disposable goods, putting 
extreme pressures on municipal waste sites. It is important to 
note that the proliferation of bottled water and other consumer 
goods is a consequence of shifting consumer lifestyles. As a 
former mayor, I sympathize with the concerns of increased 
pressures on the holding capacity of our countries municipal 
waste facilities and we as a country need to become more 
conscious on what we buy and toss into our garbage can.
    We will hear testimony today from Dr. Stephen Edberg, 
Professor Laboratory Medicine and Director of Microbiology at 
Yale University, whose extensive research is focused on 
bacteria that are found in the environment that may cause 
infection in human beings. He will explain to the Committee 
that concerns over the potential harm to human health are 
unwarranted and that U.S. bottled water is indeed safe for 
human consumption.
    We will also hear testimony today from Joseph Doss, 
President and CEO of the International Bottled Water 
Association, here to discuss industry efforts to ensure 
consumers receive a safe and sustainable product. He will 
discuss how they have addressed contamination, mislabeling and 
waste stream concerns by going above and beyond the 
requirements imposed under current law through their Model 
Code, which applies to the overwhelming majority of bottled 
water sold in the United States.
    I hope this hearing provides clarity to the status of 
bottled water, which is already comprehensively regulated at 
the Federal, State, Local and Industry levels in order to 
ensure its safety and sustainability.

    Senator Lautenberg. Thank you very much, Senator Inhofe.
    Now, Ms. Wu, we will hear from you.

   STATEMENT OF MAE WU, J.D., MPHIL, STAFF ATTORNEY, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Ms. Wu. Good afternoon, Senator Lautenberg and members of 
the Committee. Thank you for this opportunity to testify on the 
quality and environmental impacts of bottled water.
    I am Mae Wu, a staff attorney in the health and environment 
program at the Natural Resources Defense Council. My testimony 
today will highlight a few of the important differences between 
EPA's and FDA's regulation of tap water and bottled water, and 
the environmental issues associated with the production and 
transport of bottled water.
    As the members of this Committee are probably aware, 
bottled water consumption in the United States is growing at a 
tremendous pace, quadrupling since 1990. Ironically, even 
though we have one of the best and safest public drinking water 
systems in the entire world, the U.S. consumes the largest 
volume of bottled water in the world.
    One of the driving forces behind this thirst for bottled 
water is the belief that it is safer than tap water. 
Unfortunately, this belief is largely unfounded. The public 
should not assume that water purchased in a bottle is better 
regulated, more pure or safer than most tap water.
    Tap water and bottled water are regulated separately in the 
U.S. EPA regulates tap water under the Safe Drinking Water Act, 
and it establishes health-based standards limiting the amount 
of certain contaminants that can be present in tap water. EPA 
requires water utilities to regularly test their water for 
contaminants and to report the results to the EPA. These 
results are also available to the public.
    FDA regulates bottled water under the Food, Drug and 
Cosmetics Act. By law, FDA is required to set health standards 
of quality for bottled water at least as protective as health 
standards set by EPA. However, FDA has not adopted some of 
EPA's standards. Two of the most significant for public health 
are e-coli and DEHP.
    EPA requires that no e-coli can be confirmed in any tap 
water sample. However, while FDA does regulate a broader 
category of bacteria which includes e-coli, it has no 
corresponding prohibition on e-coli, as EPA has. A 1993 
proposal by FDA to prohibit e-coli in bottled water languished 
at the agency until 2004 when it was withdrawn altogether from 
further consideration.
    The chemical DEHP is a potent hormone disrupter which 
interferes with the production of testosterone and is 
associated with birth defects of the genitals, testicular 
cancer and poor sperm quality. It has been widely used as a 
sealant in bottled water and other packaged foods. EPA limits 
the amount of DEHP in tap water, but FDA does not for bottled 
water.
    In 1996, FDA proposed setting a standard equal to EPA's but 
has deferred final action on a DEHP standard for the past 12 
years. Over that time, the scientific evidence about the 
potential health risks of DEHP has grown significantly.
    There are other important differences besides standards for 
specific contaminants. FDA's testing and reporting requirements 
for bottled water are weaker than FDA's, and FDA has many fewer 
resources dedicated to regulating bottled water than EPA. 
Perhaps the greatest discrepancy is that the public does not 
have access to the same information about bottled water that it 
does about tap water.
    EPA requires water utilities to report to customers 
annually about the quality of their tap water over the past 
year. But FDA has no such reporting or labeling requirement for 
bottled water. FDA's minimal oversight over the industry, 
combined with a lack of publicly available information, makes 
it much less likely that if a problem exists it will be 
identified.
    Furthermore, FDA's regulations exclude water bottled and 
sold within the same State, which constitutes a significant 
amount of bottled water, as well as several types of bottled 
water, including sparkling water and tonic water. Regulation of 
these waters is left to the States who are also under serious 
resource constraints and are under no legal obligation to adopt 
the FDA standards or any standards at all.
    There are also significant environmental issues connected 
to the production and distribution of bottled water. 
Consumption of bottled water produces billions of plastic 
bottles each year, most of which are not recycled. As a result, 
tens of billions of plastic bottles are sent to landfills that 
are already overburdened.
    In addition, in contrast to tap water, bottled water gets 
to us on ships and trains and trucks that all use oil and come 
in bottles made from oil. A Swiss study found that bottled 
mineral water is responsible for more than 175 times more 
primary energy consumption, almost 170 times more crude oil use 
and over 200 times more greenhouse gas emissions than tap 
water. There is also growing concern that bottling water can 
produce scarcity problems in certain areas, which is becoming a 
more common problem in the U.S.
    In short, a significant amount of resources are used and 
pollution and waste is created in the production and 
distribution of bottled water which could be avoided by a 
greater use of tap water. In conclusion, NRDC offers the 
following recommendations. Congress should enact bottled water 
labeling legislation like what Senator Lautenberg has 
introduced that ensures the public's right to know about the 
quality, treatment and source of bottled water. FDA should 
adopt EPA's health standard for DEHP, prohibit the presence of 
e-coli and increase monitoring and reporting requirements. To 
the extent that FDA does not have or does not believe it has 
authority to undertake these actions, Congress should clarify 
that it does. Congress should further clarify that all bottled 
water sold in the United States is federally regulated.
    To maintain improved protection for the Nation's drinking 
water, Congress should increase funding for water 
infrastructure and establish strong, health-protective 
standards for contaminants of concern. The long-term solution 
to drinking water problems is to fix tap water, not to switch 
to bottled water. Most of the time, plain old tap water is just 
as good for you as bottled. It costs a lot less and it does not 
consume as much energy to produce or leave as much waste.
    Thank you again for inviting me to testify before you 
today. I would be happy to answer any questions.
    [The prepared statement of Ms. Wu follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Thank you, Ms. Wu.
    We now have a different standard than we started with. We 
are now engaged in a 6-minute standard, and that is made 
possible by the lack of the presence of others here. So Ms. 
Hauter, here you go, and you have 6 minutes, not seconds over, 
but 6 minutes, to present your testimony, and we invite you to 
do so at this point.

            STATEMENT OF WENONAH HAUTER, EXECUTIVE 
                 DIRECTOR, FOOD AND WATER WATCH

    Ms. Hauter. Good afternoon, Chairman Lautenberg. Thank you 
for the opportunity to testify.
    My name is Wenonah Hauter. I am Executive Director of Food 
and Water Watch, a consumer organization in Washington, DC. We 
are very concerned that consumers have been misled about the 
benefits of bottled water, because it is a product that is very 
poorly regulated by the FDA. In fact, the FDA has less than one 
full-time employee devoted to bottled water oversight. The 
rules that the FDA has for bottled water apply only to bottled 
water packaged and sold across State lines, which leaves out 
about 60 to 70 percent of bottled water that is sold within a 
single State.
    Also, one out of five States do not have bottled water 
laws, and some State regulations mirror FDA's standards. Some 
are more stringent and some fall far short of ensuring consumer 
safety. For the 30 to 40 percent of bottled water that the FDA 
does regulate, the companies do not have to test the water 
after bottling or storage. The agency requires that companies 
test four empty bottles every 3 months for bacterial 
contamination. They must test a sample of water after 
filtration and before bottling for bacteria once a week. And 
when it comes to physical, chemical and radiological 
contaminants, a sample of water must be checked only once a 
year. And the FDA does not monitor industry records to make 
sure that there is compliance.
    Meanwhile, tap water is regulated under the Safe Drinking 
Water Act by the Environmental Protection Agency. EPA requires 
that water systems serving more than one million people test 
300 water samples per month, while utilities serving three 
million people or more must collect and test 480 samples 
monthly. Unlike the bottled water industry, that does not have 
to inform consumers of testing results, utilities are required 
to make their testing results available to consumers.
    Yet, because of the aggressive advertising of the bottled 
water industry, consumers believe that they are getting a 
better product when they purchase bottled water. And with the 
downturn in the economy, many consumers are spending their 
hard-earned money on a product that is inferior or no better 
than tap water. A person who buys the equivalent of one gallon 
of water in 20 ounce bottles will likely pay anywhere from $8 
to $10 compared to the going rate of almost $4 a gallon for 
gasoline.
    And it is not just consumers who are paying too high a 
price for bottled water. So is the environment. Here are just a 
few of the statistics. More than 26 billion plastic water 
bottles are sold each year in the U.S. Eighty-six percent of 
the empty plastic water bottles end up in landfills or are 
incinerated. More than 17 million barrels of oil, not including 
fuel for transportation, are used in bottled water production. 
Producing the bottles themselves creates about 2.5 million tons 
of carbon dioxide, and it uses, to create a 20 ounce bottle of 
water uses 60 ounces of water.
    Another environmental cost of bottled water is the loss of 
groundwater. And there are communities all over the Country who 
are fighting the bottled water industry because of water mining 
that affects their springs, wetlands, streams and rivers. We 
think that there should be some kind of reporting of the impact 
on localities and regions.
    Another recommendation is, we believe that every society 
should offer its citizens safe and affordable water. 
Unfortunately, we have new generations of young people who have 
had bottled water and believe that tap water isn't good to 
drink. We are concerned about the continuing commitment to fund 
infrastructure in the future for drinking water and for sewage. 
We would like to see Congress pass a clean water trust fund 
that would help close the $22 billion gap for clean 
infrastructure.
    We are also very enthusiastic about the Bottled Water Right 
to Know Act, and we intend to help work to pass that. We hope 
that it is a stepping stone to require the bottled water 
industry to actually label the bottled water product with the 
source of the water, how and whether it was treated, the 
presence of regulated and unregulated contaminants. We think 
that testing results should be public.
    Thank you very much.
    [The prepared statement of Ms. Hauter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Thank you very much.
    And now we will hear from Dr. Edberg. Thank you, Ms. 
Hauter, you beat the time clock.
    [Laughter.]
    Senator Lautenberg. That is not a requirement, but 
noteworthy.
    Thank you.

  STATEMENT OF STEPHEN C. EDBERG, PHD., A.B.M.M., PROFESSOR, 
 LABORATORY MEDICINE, INTERNAL MEDICINE, CHEMICAL ENGINEERING, 
  YALE UNIVERSITY SCHOOL OF MEDICINE, AND DIRECTOR, CLINICAL 
        MICROBIOLOGY LABORATORY, YALE-NEW HAVEN HOSPITAL

    Mr. Edberg. Thank you very much for inviting me. It is a 
distinct honor to be here.
    This year I won the lifetime achievement award in medical 
microbiology and the title of my talk was From PF70: the Bronx 
to Yale. Now I can say I have testified in front of Senator 
Frank Lautenberg. I have many relatives in New Jersey and we 
know you as a person of great respect.
    I am here representing Yale University School of Medicine. 
I have been involved in drinking water research for 
approximately 25 years. I have been a consultant to virtually 
every drinking water organization there is, including the 
Groundwater Association, the World Health Organization, 
American Water Works Association, EPA and IBWA.
    I have at least 75 papers and peer-reviewed journals 
concerning health issues related to drinking water. It turns 
out that actually I invented this standard drinking water test 
used throughout the world and in 45 of the 50 States for 
bacteria, which are total coliforms and e-coli. That has been 
the standard throughout the world since 1992.
    So that is what I am bringing to the table today.
    The purpose of my talk, which is outlined, is to basically 
review the essential differences between tap water and bottled 
water from an objective point of view. Quite simply, bottled 
water is a sealed food product. Once you put the water in the 
bottle and you seal it, that is it, nothing else happens. It 
may seem fairly obvious, but it is essential to actually 
compare that with municipal water.
    One of the reasons is, municipal water has a terrific 
challenge. Municipal water, first of all, can't choose its own 
source and has to deal with where it is. As a result, all sorts 
of different treatment parameters have to take effect or have 
to be used. The major difference is, of course, that in bottled 
water, it is sealed, that is it, nothing else happens. Tap 
water has to pass through a distribution system. I think it is 
fair to say that the EPA and many of the public health people 
now view the distribution system as injecting potential great 
variability into the process.
    The average American city loses 18 to 44 percent of its 
drinking water actually through leaks in the pipes. And leaks 
are going both ways, the leaks go in and the leaks out. As a 
result, there can be intrusion of soil and often drinking water 
pipes are in the same trench as sewage pipes. So it is a great 
challenge. I would like to echo what Commissioner Lloyd said. I 
think that certainly I would very strongly support, as probably 
one of the major public health agendas in this Country, 
financing for particularly distribution system upgrades and 
maintenance. I think that is absolutely essential.
    As I mentioned, bottled water is a sealed food product. One 
of the other differences is, bottled water is actually highly 
regulated, meaning there are a lot of regulations that apply to 
bottled water. Now, because it is a very low-risk item, there 
is a not a lot of individuals at FDA necessarily spending their 
time on it. The regulations of bottled water by FDA, I think it 
should be clear, mirror that of EPA. We have already heard 
that. In fact, there is a hammer provisions. If EPA passes a 
new regulation, FDA has a certain period of time to apply that 
to bottled water, otherwise it automatically applies to bottled 
water.
    Now, some things that are regulated in municipal water 
don't apply to bottled water, things related to distribution 
system or storage, for example. But if they apply, FDA has to 
do it. It is as regulated as EPA is.
    The third major differences are treatment parameters. 
Basically, bottled water gets to choose its sources. Regardless 
of whether it is municipal water, as you mentioned, or 
protected aquifers or what have you, virtually or if I am not 
mistaken all bottles then undergo further treatment. There is a 
principle in engineering, and I originally had an engineering 
background, called the multiple barrier concept. What that 
means is that there are barriers established horizontally along 
the treatment train. Filtration is one such barrier. Ozonation 
is a barrier. Reverse osmosis is a barrier.
    So bottled water companies have the ability to choose and 
mix what they need for that particular water source. Municipal 
water can do the same. But certainly bottled water adds 
additional multiple barriers to the process.
    Essentially, from the medical point of view, and the CDC 
agrees with this, it is on their website, in a bottle of water, 
you can call the company up and find out what is in it. There 
is almost invariably an 800 number, and you should be able to 
do that. If you can't, I wouldn't use that bottled water. It is 
free choice. Municipal water, again, goes through a 
distribution system, and that individual glass can or can't 
have something in it. Municipal water, as you heard, is 
actually tested fairly infrequently, for a million people, 300 
tests a month or so is, considering the size, not that much. 
New Haven has a square mile of about 30 by 20, and we are only 
mandated to perform 400 water tests a month.
    So in summary, I don't want to go over, there are 
differences. It is to me, as the CDC says, an individual choice 
of whether you want to pay or not pay for a product which you 
can call up and identify. It is that simple to me.
    So I would be happy to take any questions, and you have my 
e-mail address.
    [The prepared statement of Mr. Edberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Thank you very much.
    Mr. Doss, you are in quite a position here, representing 
the industry. I want to say, before your testimony, the purpose 
of this hearing is not intended to criticize or vilify bottled 
water. That is a choice people make. We hope they make it with 
some forethought, but knowledge is important in this case. That 
is what we are looking for. We welcome your testimony.


 STATEMENT OF JOSEPH K. DOSS, PRESIDENT AND CEO, INTERNATIONAL 
                   BOTTLED WATER ASSOCIATION

    Mr. Doss. Thank you, Mr. Chairman. Good afternoon, Chairman 
Lautenberg. My name is Joe Doss. I am President and CEO of the 
International Bottled Water Association. I appreciate this 
opportunity to discuss the quality and environmental impact of 
bottled water.
    Bottled water, whether in retail size packages or in the 
larger containers used in home and office water coolers, is a 
safe, healthy, convenient beverage product. It is 
comprehensively regulated as a packaged food product at both 
the Federal and State level. At the Federal level, bottled 
water must meet FDA's general food and beverage regulations in 
addition to standards of identity, standard of quality, good 
manufacturing practices and labeling requirements specifically 
promulgated for bottled water.
    In 1996, Congress enacted legislation that requires FDA 
bottled water regulations to be as protective of public health 
as the EPA standards for public drinking water systems, which 
we have heard a couple of the witnesses refer to previously.
    Contrary to the statements made earlier, it is also 
important to note that the courts have held that FDA's 
jurisdiction over foods and beverages, which includes bottled 
water, extends not only to those products that move in 
interState commerce, but to those products sold within a single 
State if they use packaging materials that have moved in 
interState commerce, such as the bottle, the caps, or the 
labels. And that is the case for almost every bottled water and 
every food product sold in the United States. In fact, FDA 
amended the law in 1997 that provides a presumption that all 
foods move in interState commerce.
    IBWA supports a consumer's right to clear, accurate and 
comprehensive information about the bottled water products they 
purchase. All packaged food and beverages, including bottled 
water, are subject to extensive FDA labeling regulations that 
provide consumers with a great deal of product quality 
information. In addition, virtually all bottled water products 
include a phone number on the label that consumers can use to 
contact the company.
    IBWA believes that the most feasible mechanism for 
consumers to obtain information not already on the label is 
through a request to the bottler. In addition, consumers can go 
to the IBWA website to access contact information or water 
quality information for all IBWA member brands.
    Consumers have many options when deciding which bottled 
water brand to drink. If a bottled water company does not 
provide the information that a consumer requests, he or she can 
choose another brand. And that is the fundamental issue: 
consumer choice. Unfortunately, many people want to make this a 
bottled water versus tap water issue. But we just don't see it 
that way. If people are drinking water, whether it is tap water 
or whether it is bottled water, that is a good thing and 
consumers should be free to make that choice. In fact, 75 
percent of consumers who drink bottled water also choose to 
drink tap water.
    Furthermore, IBWA agrees with the others on this panel and 
supports investments to improve the U.S. public drinking water 
system in order to maintain the highest quality water quality 
for all citizens. The bottled water industry strongly supports 
comprehensive environmental conservation and stewardship 
policies. Bottled water companies have been taking actions to 
reduce their environmental footprint. For example, the bottled 
water industry is using much lighter weight plastics for its 
containers, utilizing more fuel-efficient means of 
transportation, and developing new technologies and product 
packaging, such as the use of recycled content.
    All bottled water containers are 100 percent recyclable. 
While the recycling rate for beverages, including bottled 
water, is better than other foods and consumer products, we 
know that more needs to be done, and we have taken steps in 
that direction. IBWA supports comprehensive curbside recycling 
programs and is working with the National Recycling Partnership 
to increase consumer awareness about the importance of 
recycling and to find new and innovative ways to increase 
recycling rates.
    While the bottled water industry supports effective 
environmental conservation policies, we strongly believe that 
any efforts to reduce the environmental impact of packaging 
must focus on all consumer goods and not just target any one 
industry. Because bottled water containers make up just one-
third of 1 percent of the entire waste stream in the United 
States, any proposed solutions must cover all consumer goods or 
they will be ineffective in dealing with the environmental 
issue.
    Throughout the years, bottled water companies have 
immediately responded to the need for clean, safe drinking 
water after natural disasters such as Hurricane Katrina and the 
earthquakes and forest fires in the west, and in other 
emergency situations, such as terrorist attacks at the Pentagon 
and World Trade Center. Most recently, our companies provided 
bottled water to those in need after the spring flooding in the 
Midwest and in just the past few weeks, to the victims of 
Hurricanes Gustav and Hanna. With Hurricane Ike fast 
approaching the Texas coast, our members have already begun 
preparations to provide bottled water if needed.
    Bottled water is always there when it is needed; however, 
the bottled water industry cannot exist only for disaster 
response. Bottled water companies in the United States are 
primarily family owned and operated small businesses that 
depend on a viable commercial market to provide the resources 
necessary to respond in emergency situations. Over 60 percent 
of IBWA members have annual gross sales of less than $1 
million. And 90 percent have annual gross sales of less than 
$10 million.
    In summary, bottled water is a safe, healthy, convenient 
food and beverage product. The bottled water industry, while a 
very small part of the overall waste stream, is working hard to 
reduce its environmental footprint. With the increase in 
diabetes, obesity and heart disease rates in the United States, 
any actions that would discourage consumers from drinking this 
safe, healthy beverage are not in the public interest.
    Thank you for considering our views. IBWA stands ready to 
assist the Subcommittee as it considers this very important 
issue.
    [The prepared statement of Mr. Doss follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
    Senator Lautenberg. Thank you very much.
    Now I would like to turn to some questions. I would ask 
Commissioner Lloyd, why did New York City spend nearly a 
million dollars to reduce bottled water use? Are there reasons 
other than the environmental impact of the accumulation of 
waste material that caused the city to begin this initiative?
    Ms. Lloyd. Yes. It was a dual project that we undertook 
with our New York City Department of Health, as I mentioned. 
Our real goal was to encourage drinking water. The Department 
of Health was very focused on diabetes, obesity, high blood 
pressure, those problems, and particularly getting young people 
to drink water.
    One of our concerns was that we have a very significant 
immigrant population in New York City. We were concerned that 
those people might feel that they had to purchase bottled water 
in order to drink water, and that would be a financial barrier. 
So we really wanted to make it clear that tap water was a 
healthy alternative that was available.
    Senator Lautenberg. Has bottled water use decreased in New 
York City since the marketing plan began?
    Ms. Lloyd. We don't have any numbers that would indicate 
that. But I would be surprised if that were the case, because 
of course, it continues to be extremely popular. But we have 
seen a couple of things that we think are really encouraging. 
First of all, there was a tremendous interest in our bottles. 
We are going to do another generation of those and continue to 
distribute them. Also, there has been very visible increase in 
the sale of reusable water bottles in lots of places where, 
grocery stores and that sort of thing, as well as sports 
stores.
    The other thing is that many restaurants in New York City 
now are encouraging the use of the drinking of tap water, even 
though it is more profitable for them to sell high value 
bottled water. So we really appreciate that.
    Senator Lautenberg. Ms. Wu, the statistics show that 
plastic bottles are usually not recycled and typically then 
wind up in landfills. While plastic bottles still make up a 
relatively small percentage of landfills, as was noted by Mr. 
Doss, does their increasing use pose a more significant 
environmental threat?
    Ms. Wu. Yes, it does. As you mentioned, we have landfills 
that are overburdened right now and sending plastic bottles 
into these overburdened landfills is definitely an 
environmental problem, as well as the fact----
    Senator Lautenberg. Does that small percentage suggest that 
doesn't really matter?
    Ms. Wu. Well, there are other problems, too, which is that 
sometimes they don't go to landfills, they are incinerated. 
There are a lot of toxic chemicals that are released into the 
atmosphere from the incineration of plastic. That is a problem.
    As I mentioned, we have some concerns about chemicals that 
are used in the plastic bottles leaching into the water and the 
effect that might have on the quality of the water.
    Senator Lautenberg. Is there any dissolution of plastic 
bottles? Do they ultimately survive forever?
    Ms. Wu. Generally, we think it will probably take thousands 
of years for them to degrade once they get in that landfill.
    Senator Lautenberg. So it continues, in your view, to be a 
threat that lasts a long time?
    Ms. Wu. Yes.
    Senator Lautenberg. I will ask Mr. Doss a question, and 
that is, would it help, and this is personal experience, would 
it help to make recycling a more attractive part of the 
process, glass bottles with deposit? Does that get any 
response? Or just the note that says, this product should be 
recycled for the well-being of future generations, or 
something? That is probably not the best wording. Because 
honestly, you have to hunt, I am not sure whether a particular 
product is recyclable or not, I don't know whether milk cartons 
are or they are not, plastic bottles. I don't see anything that 
really calls attention to the fact that recycling is a good 
idea, as opposed to just throwing it in the trash.
    Mr. Doss. You make a very excellent point, Chairman. I 
think we do need to make it more attractive. And the bottled 
water industry has worked hard, two things. First of all, I 
think we need to educate consumers about the importance of 
recycling. We have been part of the National Recycling 
Partnership to do just that. So I think that is an important 
part of it.
    I think we need to look at it, though, as I was sort of 
mentioning, and a more comprehensive approach is needed. When 
you go to your kitchen cabinet or when you go to open up your 
refrigerator door, you see so many different products that are 
made out of plastic containers. As I mentioned, the bottled 
water industry is only .3 percent of all waste in the United 
States.
    Now, we want to do our part, and we are working hard to try 
to reduce our environmental footprint. But to your point, with 
regard to the National Recycling Partnership, we are involved 
in a pilot program right now in Hartford, Connecticut. Part of 
that effort in Hartford, Connecticut is to try some new and 
innovative ways to get consumers to recycle. One of those is to 
perhaps provide a bit of an incentive to do so. There is 
something called the Recycle Bank up there that they are 
trying. Basically consumers will be putting the recyclables in 
a single stream, and that is important to your point of making 
sure that is easy for consumers, to your point. You don't know 
if this or that. In this pilot program, a single stream, 
everybody, you can throw your cardboard, you can throw your 
newspapers, you can throw everything into one bin and it is 
taken away and recycled, at curbside. That is very important. 
You don't have to separate it, you don't have to worry, well, 
does this go here, is this recyclable. So I think that is very 
important.
    And the incentive there is that if consumers, the more they 
recycle, they are able to get a financial incentive, I think up 
to $400 per year on a debit card that they can go spend at 
local shops around that area in Hartford. So I think that all 
of these things need to be looked at, but I think we need to 
take a comprehensive approach to it, to make it attractive, to 
give incentives.
    Senator Lautenberg. Do you think the industry does, well, 
that is not a fair question, enough? Because even though it is 
only .3 percent, you put it all in containers, that is a lot of 
containers, that is a lot of space. A lot of the trash that is 
picked up burns without too difficult an effect or too serious 
an effect. But apparently, plastic bottles give off toxic 
emissions or what have you. So I think there is little solace, 
really, in the fact that it is only a small percentage. When 
you think about it, how many items in landfills are more than 
.3 percent? I don't think there are a lot. Old bed parts and 
things like that may consume a lot more space, but ultimately--
--
    Mr. Doss. I didn't mean to diminish that. I think we 
obviously think it is very important for all industries, and we 
are doing what we can. But if it is to be effective, it has to 
be a more comprehensive approach.
    By the way, on your point, I think a lot of bottled waters 
do now, and a lot of other products that are made out of 
plastic, do try to put on their label, please recycle, some 
message to try to encourage consumers to recycle.
    Senator Lautenberg. It would be good if they could use 
large type.
    [Laughter.]
    Senator Lautenberg. Ms. Hauter, many people are surprised, 
maybe even shocked, when they learn that 40 percent of bottled 
water is actually tap water. Does the marketing of water 
bottles tend to mislead, do you think?
    Ms. Hauter. Yes, we think it is very misleading. Our 
concern is for consumers, especially today with the downturn in 
the economy, people have only so many dollars to spend at the 
grocery store. If they are spending that money on bottled water 
instead of perhaps a fruit or vegetable for their family, then 
we think that is probably not the best decision. In most 
places, more than 90 percent of public water systems met the 
requirements last year, the EPA requirements. So generally, tap 
water is very safe and affordable.
    Senator Lautenberg. Only 60 percent met?
    Ms. Hauter. More than 90 percent.
    Senator Lautenberg. More than 90. It is a hard statistic to 
come by. By you are satisfied that is reliable?
    Ms. Hauter. Yes, that is from the Environmental Protection 
Agency. And utilities are required to post their results for 
testing, and to do a water quality report once a year. So most 
consumers can go onto their local utilities' website, or if it 
is a small utility, they can call and get the testing results. 
Utilities also mail out the testing results.
    If there is a problem with the drinking water, then the 
most efficient and safest way to deal with the problem is to 
match a filtration system with the contaminant. Then they can 
be certain. Even in a bottle, a sealed bottle, there is very 
little scientific research being done on the plastic leaching 
and the chemicals leaching into the water after it has been on 
the shelf for a long time. That is one of the reasons we think 
the bottled water industry should use some of the new testing 
that is available and make that information available.
    If the product is good, then there shouldn't be a problem 
with more testing and more transparency.
    Senator Lautenberg. One of the things that obviously my 
legislation is intended to do is to get some kind of a uniform 
standard out there that things can be measured by. I would ask 
you, Mr. Doss, when there is a picture of a mountaintop, frosty 
at the top, and snow, is that designed to imply that is the 
derivation of the water that is in that bottle?
    Mr. Doss. I would say that is something that has to be 
dealt with on an individual by individual case. Obviously, I 
don't know which exactly you are referring to. I think you 
would have to look at it. But obviously, I think that is a 
matter for State law, Federal law, if there is misleading 
advertising going on, misleading marketing going on, then 
obviously that product should be held accountable.
    We are not here to defend companies that might be making 
misrepresentations on the label, either in words or in 
pictures. That would have to be dealt with, I think, on a sort 
of individual case.
    Senator Lautenberg. Because it won't say that this water 
comes from an altitude above 6,000 feet, just the awful pretty 
mountaintop, and you think of purity. Again, I think there is a 
place for bottled water. Those communities where aquifers, 
which we typically in New Jersey use, dry up or turn brackish 
or what have you, there is not always supplies available. And I 
am not suggesting that the only value to bottled water is 
emergency.
    But I can see situations where bottled water is perhaps not 
only a good substitute but an essential one. But that case has 
to be made by, I think, the industry and in fairness, once 
again, to the consuming public, we have to make sure that they 
understand when things are as tight as they are, budgets are 
difficult, people can't afford things, it is suggested that 
bottled water, a gallon of water can cost more than a gallon of 
gas.
    But if people will sooner give up the bottled water than 
the gallon of gas, it doesn't have dual purpose. You can't 
drink it, thank goodness. But the fact of the matter is that 
budgeting is very difficult for working families today. So that 
is a test that obviously the industry has to look at as well.
    Mr. Doss. Certainly. Again, I guess it comes down to 
choice, and consumers do have a choice, whether they want to 
purchase it or not. I will address the issue of advertising, 
since it has been brought up.
    Senator Lautenberg. That, recycling and I think it is an 
industry with significant economic power. A lot of the product 
is produced by very large, reliable companies. But I still 
think that the test has to be passed as to whether or not 
alternating with public water supply is essential. People are 
now, I believe, for the most part, saying, oh, don't drink the 
public water. I know that New York City has been very 
successful in creating good tasting water, and people feel good 
about it. But that can't be said in every place. So we have the 
consumer choices.
    I would ask the panel your views, do you believe that 
bottled water manufacturers should be giving, it is almost 
rhetorical, the public the detailed information, source of 
water, level of contaminants and so forth? How much more 
information do you think might be given that puts the public at 
ease with knowing that the water that they buy is strictly a 
choice between good water from the tap or good water in a 
bottle? What do you think the industry ought to do? By the way, 
they are not necessarily going to listen.
    Mr. Edberg. Could I make a brief comment?
    Senator Lautenberg. Dr. Edberg.
    Mr. Edberg. I am a practicing medical microbiologist, I am 
head of medical microbiology at Yale. We have a very large 
cancer program, we have a very large HIV program. I am asked 
that question all the time by people who are taking all sorts 
of immunosuppressives.
    One of the common therapies for rheumatoid arthritis is an 
immunosuppressive. And at least in New Haven, all the water 
that is sold has an 800 number on it. You can call them up and 
say, where does the water come from, how are you treating it 
and exactly what is in it. That is my answer to the question. I 
have done that myself, by the way.
    Senator Lautenberg. But do you think the average person is 
sophisticated enough to know that----
    Mr. Edberg. I think the average person is more 
sophisticated to call an 800 number than if you list the amount 
of boron in the water, in the natural water. Even in the 
medical field, we don't necessarily even report out individual 
numbers to the doctors. We report out things like susceptible 
intermediate resistance for antibiotics.
    So I think it is more important to have somebody on the 
phone to explain actually what is in the bottle than to have a 
number that very few people are actually going to be able to 
interpret. That has been my personal experience, because I get 
those phone calls.
    Senator Lautenberg. Do you disagree?
    Ms. Hauter. I disagree. What we are saying is that very few 
bottles have the information necessary for a consumer to 
actually call and get a live person. You can go down to Giant 
and get their local brand. Very little information.
    The big water bottlers, Nestle being the largest, with 
many, many different brands, the 800 numbers, if it is on the 
package simply says that they are basically meeting standards. 
It is very difficult to get any real information. And that 
would be voluntary information, probably provided by somebody 
with a $7 an hour paycheck. Much better to have the industry 
required to provide that to the public. And if it is not a 
problem, I am not sure why the bottled water industry opposes 
it so much.
    The same with recycling. When we have been involved in 
battles at the State level over recycling, the beverage 
industry is usually the biggest opponent of having recycling 
laws. So I think we need to have some accountability and we 
need to have consumers provided the information easily so that 
they can make the choice for their household, not having to 
call an 800 number and be basically dependent on the goodwill 
of a company.
    Senator Lautenberg. Dr. Edberg, do you think that someone 
might make the call and get an answer, oh, we fill these 
bottles from a water tap in Bedford, New York, or Bayonne, New 
Jersey or wherever, and say that this is where we get our water 
supply, but it is good water, we check that out first? Would 
you think, Mr. Doss, do you think that----
    Mr. Edberg. It has been my experience, and the experience 
of my patients, that when they call an 800 number and they ask 
to speak to the plant manager or somebody, they get all that 
information. And my family is from Bayonne, and the water is 
perfectly fine. And I have no idea if they bottle water in 
Bayonne.
    [Laughter.]
    Mr. Edberg. But it has been my experience that information 
is available, the source of it. Bottled water is a packaged 
food product, so it has a lot number on it. It says when it is 
made, where it is made, you can trace it back. If it turns 
purple, you can call up and say, why is the water purple. I 
haven't seen that, but the fact is, it has a trail of 
accountability. And I have never been disappointed in following 
that trail back, neither have my colleagues who are actively 
involved in the clinical treatment of patients.
    Senator Lautenberg. Mr. Doss, what do you think about an 
information requirement? You have already said that numbers do 
not necessarily reflect knowledge that is consumable by the 
persons who might make the phone call. What else? Is there 
anything you would recommend to the industry that would clarify 
this dilemma that we are reviewing here now, that is whether we 
go into legislation and say, OK, there is a right to know, that 
is a favorite view of mine, all kinds of things, people have a 
right to know what is stored chemically, people have a right to 
know about safe products, et cetera.
    Mr. Doss. I don't think we disagree that consumers have a 
right to know what is in their water. I think the real question 
comes down to how we best can effect that. I think for us, as I 
have said before, we think the best way to achieve that, the 
most feasible way to achieve that, is for consumers to be able 
to contact the company. There is information on the label right 
now where they can contact the company and get information that 
they need. If they don't get it, they should choose another 
bottled water.
    There is scarce label space right now for the information 
that is already required. FDA several years ago did a 
feasibility study on whether or not the consumer confidence 
reports required for the EPA tap water would be feasible for 
bottled water. Their recommendation is that there is just too 
much information, obviously, on a consumer confidence report to 
be able to get it on a bottle label. You just can't do it. So 
the question then is, and so much of that information might 
change from source to source, might cause that product to be 
mislabeled and misbranded because of changes in terms of what 
source you might use. So there are some problems that FDA 
identified with doing that.
    Senator Lautenberg. But you wouldn't obviate the rules 
because there might be, it might be misunderstood by a water 
bottler? The rule says this is what the bacterial content might 
be, or the things that you folks are aware of that might be a 
health threat.
    I understand that there was, and I saw an attempt at this 
being done, and that is, there was a system shown to me that 
said, through light beams, purify the water after it was 
bottled. And I have known there have been several attempts to 
do that. Has there ever been a system devised that would 
further cleanse water after it has been packed and bottled?
    Mr. Doss. I am not familiar with that technology, no.
    Senator Lautenberg. By the way, the company went bankrupt.
    [Laughter.]
    Senator Lautenberg. Ms. Wu, do you have a view?
    Ms. Wu. Not on that technology, but I wanted to go back to 
the labeling question that you had asked, and how Mr. Doss had 
talked about how it wasn't feasible. From our perspective, we 
think that there needs to be, on the label, information about 
the contaminants that were detected, what the potential health 
effects are, what the real, precise source of the water is, 
whatever treatment happens to it. And the reality is that 
information could be put on a label. We have done a really kind 
of rough mock-up of what that would look like. Something like 
this would have all the information that we think could go on a 
label. It would inform a consumer right away as they are 
looking at the bottle, rather than expecting them to call up.
    Senator Lautenberg. So you would use that numerical 
equivalence or things of that nature, a broad statement that 
nothing in this water can injure your health or something like 
that?
    Ms. Wu. It would be basic information about what the 
maximum allowed limits are, whether the water has violated that 
number or not. And it could be something as simple as just 
saying, an annual label that has to be changed, so it doesn't 
have to be changed every time they do testing.
    Senator Lautenberg. So a dated label might do?
    Ms. Wu. Yes, exactly. There are many ways to make it 
feasible.
    Senator Lautenberg. Ms. Lloyd.
    Ms. Lloyd. I am just thinking two things. One is, we do 
send out a very complete report every year on all the 
cumulative findings of all the testing that we do. We test 
thousands of locations a week in New York City, and 
distribution. I think it is right that the water does have to 
be monitored closely in distribution.
    But it is very interesting, because we also do get people 
who call up 311, which is the general information number in New 
York City, and ask to be sent that information. So there 
certainly is some interest about that. I think having it 
readily available over the phone would be a real plus to 
people. I was also just thinking, I noticed on a package of 
chewing gum the other day that there was a very long bit of 
information about what the contents were, including that there 
was a content that people who took a certain medication might 
be sensitive to. So I really think that, I find it hard to 
believe that packaging couldn't be devised that would give some 
basic information that would be helpful to people about, and I 
think in particular of how difficult it can be to maneuver the 
telephone and 800 numbers for some people, and that it would be 
much easier just to be able to get it off the label.
    Senator Lautenberg. Well, if you judge it by airline 
response, there wouldn't be any room for other telephone calls. 
But I have some other questions.
    I would ask this of you, that it is obvious that we need to 
increase funding for water infrastructure, to continue to 
provide safe and healthy tap water to our communities. Mr. 
Doss, does the increased use of bottled water call for some 
infrastructure funding in the rest of our system to say, OK, 
there is more consumption, thus, we can see more consumption of 
bottled water and so forth? Is bottled water gaining market 
share in your organization's view?
    Mr. Doss. Are we gaining market share against tap water?
    Senator Lautenberg. Of usable water, yes.
    Mr. Doss. I don't believe we are gaining market share over 
tap water. I think if anything we are gaining market share over 
the other carbonated soft drinks, fruit juices, teas, on the 
marketplace. I think consumers are more health conscious these 
days. They are trying to eat and drink more healthfully. So I 
don't think we are taking anything away from the tap water. As 
a matter of fact, as I understand it, there is about 1 percent 
of tap water in the United States that is consumed, only 1 
percent.
    So we don't consider ourselves to be in competition. As I 
say, it is not a tap water versus bottled water issue. Our 
competition in the marketplace is the fruit juices, the 
carbonated soft drinks, and the teas. So we are not trying to 
gain market share over tap water. And to the advertising point, 
this industry only spends $52 million to advertise during the 
course of a year. That is Beverage Marketing Corporation's 
statistics. If you look at carbonated soft drinks, that figure 
is about $600 million. If you look at beer, that is about $1 
billion. If you look at milk, it is about----
    Senator Lautenberg. So that says that your industry doesn't 
have to, that people just run to it.
    Mr. Doss. It is market-driven, it is a consumer-driven 
growth, and we are not advertising against tap water. We are 
basically trying to provide a healthy product for consumers 
when they want to drink it.
    Senator Lautenberg. So I come to the conclusion from your 
commentary, not to put words in your mouth, that there wouldn't 
be any objection to having a standard established that could be 
easily understood by the public that says, OK, this bottle has 
some of these and none of these, or whatever, that has to be 
reported in order to protect health. Would that be OK with you? 
One standard for the whole industry?
    Mr. Doss. I think the fundamental difference here is that 
we are trying to, in this discussion, compare bottled water to 
tap water and compare bottled water labeling, which is a food 
product, to tap water consumer confidence reports. There is a 
big difference there.
    Senator Lautenberg. I was thinking of more specifically, we 
have tap water standards that have to be met. And even there we 
don't have enough inspections being done. We are short of 
people and short of motivation from some of the agencies.
    But I just wondered whether a uniform standard by which, 
and it allows for advertising, but would be a good idea to give 
the public some confidence that what they think they are 
getting is what they are getting. Is that of value? Would you 
say source of water is of value?
    Mr. Doss. We think the information that is currently 
required is sufficient on the label. FDA has made 
determinations, for instance, about source labeling, that it is 
not a material fact. Some manufacturers put it on the label. 
Some do not. And again, I think we are getting into a situation 
where we are trying to compare a food product with consumer 
confidence reports. There is a big difference.
    The difference is this. With regard to the consumer 
confidence reports, consumers have no choice about what tap 
water is piped into their homes. Consumers do have a choice 
about what bottled water they drink.
    Senator Lautenberg. Is there frequent enough inspection of 
bottled water quality, do you think, to properly guard the 
public at this point?
    Mr. Doss. I think so.
    Senator Lautenberg. Do you think so, Ms. Hauter?
    Ms. Hauter. We are concerned, because just look at the 
study that NRDC did a few years ago that looked at 1,000 
bottles of bottled water. They basically found that a quarter 
of the brands had bacterial contamination, a fifth of the 
bottles had some kind of man-made chemicals. So there is an 
issue out there, and we shouldn't have public interest groups 
having to do this research. We know that the FDA is under-
staffed and under-resourced. They are not even able to inspect 
the food that they are responsible for. So they view bottled 
water as low risk.
    But there is a chemical load that people have. So even if 
there is just a very small percentage of chemicals in a brand 
that somebody is drinking on a regular basis, that has an 
effect on a person's chemical load. So we think there should be 
testing, and if there is testing going on as the bottled water 
industry says, even though the FDA doesn't have the staff to 
check the results, then they should be willing to make that 
public and transparent.
    And I will tell you, these 1,000 bottles, the problems that 
those brands had, they weren't giving the public that 
information when they called the 800 number.
    Senator Lautenberg. Thank you.
    We are going to close. Ms. Wu.
    Ms. Wu. The other thing I wanted to say is that studies 
show that people are buying bottled water because they think 
that it is better regulated and better tested and more pure 
than tap water. So the fact is that consumers shouldn't assume 
that is the case, but they need the information to be able to 
make the choices, and the right choices.
    Senator Lautenberg. I am going to close with a note here. I 
used Bayonne as an example. There is no suggestion that 
Bayonne, Bayonne happens to be, I have roots in Bayonne. 
Bayonne is a terrific city, very well managed. By the way, 
growing in attraction.
    Mr. Edberg. Chuck Lefter was a personal hero of mine.
    Senator Lautenberg. Yes. Barney Frank comes from Bayonne.
    Mr. Edberg. That is right.
    Senator Lautenberg. I thank all of you. I am sorry I have 
kept you so long, but the fact is that without colleagues here, 
it was so nice----
    [Laughter.]
    Senator Lautenberg. Oh, I mean, what an accident----
    [Laughter.]
    Senator Lautenberg. Thank you all for being here.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
